             u.s. Small Business Administration
             Office Inspector General
                                                   Memorandum
     To:Eric Zarnikow                                                Date:   December 15, 2009
        Associate Administrator for Capital Access
        lsi Original Signed
  From: Debra S. Ritt
        Assistant Inspector General for Auditing

SUbject: 	   Inadequate Documentation to Support a Loan Approved Under Section 504 of the
             Recovery Act
             Report No. ROM 10-06

             Attached is the Management Letter issued by KPMG LLP which identifies a
             matter that came to their attention during the audit ofSBA's FY 2009 financial
             statements. The objective was to determine the adequacy of controls over the
             loan approvals funded under Section 504 - Stimulus for Community
             Development Lending of the Recovery Act.
             KPMG addressed recommendations to the Director for the Office of Financial
             Program Operations. We provided a draft ofKPMG's report to this official or
             designee, who concurred with the rmding. The official or designee agreed to
             implement the recommendations or has already taken action to address the
             underlying conditions.

             Should you or your staff have any questions, please contact Jeffrey R. Brindle,
             Director, Information Technology and Financial Management Group at (202)
             205- [FOIA ex. 2]

             Cc: Jonathan I. Carver
       ,I
rt.<.P-M.G.                   KPMGLLP
                              2001 M street, NW
                              washington. DC 20036




                     AMERICAN RECOVERY AND REINVESTMENT ACT 

                               MANAGEMENT LETTER 




November 13, 2009


CONFIDENTIAL

Office of the Inspector General,
U.S. Small Business Administration, and
Administrator of the SBA:


We were engaged by the Office ofInspector General (010) to perform supplemental audit services for the
purpose of testing certain transactions and system enhancements related to the U.S. Small Business
Administration's (SBA) implementation of the American Recovery and Reinvestment Act of 2009
(ARRA). The procedures were performed as part of an expanded scope of our fiscal year 2009 audit of
SBA's consolidated financial statements. In planning and performing our audit procedures related to
SBA's implementation of ARRA, we considered internal control aspects related to the implementation
and operation of the ARRA programs that were in place as of September 30, 2009. However, our audit
services under this contract modification did not include issuing an opinion on the effectiveness of the
controls, and accordingly, we do not express our opinion on such controls.

During our audit, we noted a matter involving internal control concerning inadequate documentation to
support a Section 504 debt refinancing approval. The comments and resulting recommendations,
presented in the Exhibit, have been discussed with the appropriate members of management and are
intended to improve internal control or result in other operating efficiencies.

We would be pleased to discuss these comments and resulting recommendations with you at any time.

This report is intended solely for the information and use of the 010, SBA management, and others
within the organization and is not intended to be, and should not be, used by anyone other than these
specified parties.




                                  KPr~Ci   I.LF it U S iinlil.d li./ilhdltl' p!JllrtlllArShip ." thff u.s
                                  rnCfl'l'Nr flllll ()! KPMG l...lt..fn~ti(lol1!t •• 5W1u Cl>Opcraulfc.
                                                                                                  Exhibit
                            U.s. SMALL BUSINESS ADMINISTRATION 

                               American Recovery and Reinvestment Act 

                                   Management Letter Comments 

                                             FY2009 



INADEQUATE DOCUMENTATION TO SUPPORT A SECTION 504 DEBT REFINANCING
APPROVAL

CONDITION:
During our testwork over the American Recovery and Reinvestment Act of 2009, section S04 refinancing
loan approvals performed at the Sacramento Loan Processing Center, we noted for one of eight 504
program loans tested, that the supervisory loan specialist did not obtain a transcript of account or its
equivalent prior to approval of the debt-refmancing transaction. A transcript of account is utilized to
review the borrower's payment history with the lender whose debt is being refinanced to determine
whether the loan has been current for at least one year. The loan officer confirms the receipt of the
transcript or equivalent as part of their recommendation to approve, which is documented on the Loan
Officer's Report (LOR).

CRITERIA:
I) 	 American   Reinvestment    and Recovery      Act,   SEC.   504, STIMULUS        FOR    COMMUNITY
   DEVEWPMENT LENDING, states:
        "(2)     Low Interest Refinancing under the Local Development Business Loan Program ­
        Section 502 of the Small Business Investment Act of 1958 (15 U.S.C. 696) is amended by adding
        at the end ofthe following:
        (7)      PERMISSIBLE DEBT REFINANCING - (a) In general- Any financing approved under
        the title may include a limited amount of debt refinancing. (b) Expansions - If the project
        involves expansion of a small business concern, any amount of existing indebtedness that does
        not exceed 50 percent of the project cost of the expansion may be refinanced and added to the
        expansion cost, if. .. (vi) the borrower has been current on all payments due on the existing debt
        for not less than 1 year preceding the date of refinancing..."
2) 	 Office of Management and BUdget Circular A-123, Management's Responsibility for Internal
     Control, states:
        "Management is responsible for developing and maintaining effective internal control. Effective
        internal control provides assurance that significant weaknesses in the design or operation of
        internal control, that could adversely affect the agency's ability to meet its objectives, would be
        prevented or detected in a timely manner."

CAUSE:
As the section 504 debt refinancing program was implemented in the fourth quarter of fiscal year 2009 the
Sacramento Loan Processing Center was inexperienced in approving this type of loan. Additionally, the
loan officer incorrectly confirmed on the LOR that the lender transcript or equivalent had been received
by the agency. This error was not detected upon supervisory loan specialist review.
                                                                                                Exhibit
                           U.S. SMALL BUSINESS ADMINISTRATION 

                              American Recovery and Reinvestment Act 

                                  Management Letter Comments 

                                            FY2009 




EFFECT:
Approving section 504 refmancing loans without adequate supporting documentation increases the risk
that ineligible individuals are approved for the program.

RECOMMENDATIONS: 

We recommend the Office of Financial Program Operations Director: 

1. 	 Reinforce through the issuance of memorandum the importance of the transcript of account or
     equivalent document.
2. 	 Ensure that the Supervisory Loan Officer properly verifies the accuracy and completeness of the LOR
     during their review. This should be accomplished through the issuance of memorandum or further
     training.

MANAGEMENT RESPONSE: 

SBA management concurs with the finding and recommendations. 





                                                                                                      2
